<html>
<title> - PRIVATE SECTOR WEATHER FORECASTING: ASSESSING PRODUCTS AND TECHNOLOGIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  PRIVATE SECTOR WEATHER FORECASTING:
                  ASSESSING PRODUCTS AND TECHNOLOGIES

=======================================================================

                                 HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              June 8, 2016

                               __________

                           Serial No. 114-81

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              ____________
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-878PDF                    WASHINGTON : 2017                     
     
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  
      
       

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
                           
                           
                           C O N T E N T S

                              June 8, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

                               Witnesses:

Mr. Barry Myers, CEO, AccuWeather
    Oral Statement...............................................    13
    Written Statement............................................    15

Mr. Jim Block, Chief Meteorological Officer, Schneider Electric
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Neil Jacobs, Chief Scientist, Panasonic Weather Solutions, 
  Panasonic
    Oral Statement...............................................    76
    Written Statement............................................    78

Dr. Antonio Busalacchi, Director, Earth System Interdisciplinary 
  Center, University of Maryland
    Oral Statement...............................................    97
    Written Statement............................................    99

Dr. Sandy MacDonald, Director, Numerical Weather Prediction, 
  Spire Global
    Oral Statement...............................................   122
    Written Statement............................................   123
Discussion.......................................................   128

             Appendix I: Answers to Post-Hearing Questions

Dr. Neil Jacobs, Chief Scientist, Panasonic Weather Solutions, 
  Panasonic......................................................   142

Dr. Antonio Busalacchi, Director, Earth System Interdisciplinary 
  Center, University of Maryland.................................   145

 
                  PRIVATE SECTOR WEATHER FORECASTING:
                  ASSESSING PRODUCTS AND TECHNOLOGIES

                              ----------                              


                        WEDNESDAY, JUNE 8, 2016

                  House of Representatives,
            Subcommittee on Environment and
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:32 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bridenstine. The Subcommittee on Environment will 
come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``Private Sector Weather 
Forecasting: Assessing Products and Technologies.'' I recognize 
myself for five minutes for an opening statement.
    Good morning, and welcome to this morning's Environment 
Subcommittee hearing.
    The American weather enterprise is made up of stakeholders 
that provide services which ultimately save lives and property. 
Among these are private-sector weather forecasting companies 
that over the years have become a major source of weather 
information. Today we have companies that specialize in sector-
specific forecasting, as well as companies which create their 
own forecasts that are disseminated to millions of Americans.
    The services they provide are essential to protecting 
Americans in the face of severe weather. This is particularly 
important to me as my constituents in Oklahoma face some of the 
most severe weather in the country. Providing them advanced 
warnings is critical. I look forward to hearing about the 
advances made by private-sector weather companies working on 
the forefront to protect lives and property.
    NOAA currently provides important data which is then 
utilized by other stakeholders to construct forecasts. Many 
private-sector companies also use their own methods and 
technologies to enhance this data.
    To me, there is a clear delineation here. NOAA should focus 
on providing the foundational datasets that others utilize to 
produce life-saving forecasts, rather than duplicating efforts 
and technologies that are employed or could be employed by the 
private sector.
    As an example, the main tenet of H.R. 1561, the Lucas-
Bridenstine Weather Research and Forecasting Innovation Act, is 
its recognition of the role commercial weather data can play as 
a piece of the solutions available to NOAA. In the face of 
looming data gaps, we need to maintain continuous, efficient, 
robust, and cost-effective data streams to feed the initial 
conditions of our numerical weather prediction models.
    This Subcommittee has a long history of oversight of NOAA's 
satellite programs, which over the years have been plagued with 
cost-overruns, delays, and mismanagement. This has underscored 
my belief that we need to augment our space-based observing 
systems by incorporating alternative methods of data 
collection.
    Earlier this year before this subcommittee, NOAA 
Administrator Kathy Sullivan testified to the ability of the 
private sector to produce weather data. She testified that ``In 
the weather domain, we believe it is a promising but still 
quite nascent prospect to actually have data flows from 
private-sector satellites.'' Today, I am pleased to have one of 
the many private-sector satellite companies before us to 
discuss their perspectives on commercial weather data.
    I was encouraged by NOAA's budget request this year for 
commercial weather, which includes funding to continue the 
Commercial Weather Data Pilot program authorized by our House-
passed weather bill. This pilot program is an important signal 
to the private sector that NOAA is interested in new and 
innovative sources of data.
    Likewise, I was also encouraged to see NOAA incorporate a 
line item for the purchase of radio occultation data as a 
potential alternative to another constellation of COSMIC 
satellites.
    The Commerce, Justice, and Science Appropriations bill 
supports both these initiatives, and I'd like to thank my 
colleagues on that committee, particularly Chairman Culberson.
    In light of these directions from Congress, I look forward 
to following up with NOAA to find out how these decisions will 
be made.
    I look forward to an in-depth discussion today about how 
private-sector data and products can build on the foundation 
provided by NOAA to help enhance the safety of all Americans.
    [The prepared statement of Mr. Bridenstine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I now recognize the gentlewoman from 
Oregon, the Ranking Member, Ms. Bonamici, for an opening 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today.
    I'd like to start by congratulating Dr. Busalacchi, who 
will soon be the President of the University Corporation for 
Atmospheric Research later this summer.
    Today's hearing is an opportunity to hear about the 
successes of the private weather industry, learn about the 
impressive weather research being conducted at academic 
institutions, and recognize the critical role that the National 
Weather Service has played, and will continue to play, in 
ensuring the strength and continuity of the entire American 
weather enterprise.
    The three sectors that make up the weather enterprise--
private, public, and academic--work collectively to meet the 
needs of the public, inspire growth and innovation, and protect 
life and property. To maintain the progress we have made over 
the last decade, we must explore opportunities to leverage 
expertise across these sectors. More can be done by NOAA and 
the Weather Service to strengthen this partnership and keep us 
on a path of serving the public even better.
    If, however, Congress were to reduce the role of one 
sector, or shift responsibilities without considering how such 
a change might affect the entire enterprise, we risk upsetting 
the balance and losing the progress so many of us have worked 
so hard to achieve.
    In 2003, the National Academies released their seminal 
report on the weather partnership, ``Fair Weather: Effective 
Partnerships in Weather and Climate Services'', and their 
recommendations state that continued success requires 
recognizing the core mission of each partner.
    The core mission of the National Weather Service is to 
provide weather forecasts and warnings to protect life and 
property, and to enhance our national economy. The NWS network 
includes thousands of forecasters, across hundreds of forecast 
offices, who support the critical infrastructure of observing, 
data processing, prediction, and dissemination systems. 
Research taking place at our academic institutions advances the 
science needed to make forecasts more accurate, while inspiring 
the next generation of meteorologists. The private sector has 
the ability to use both the research and NWS data to tailor 
exciting new products to meet the changing demands of a diverse 
set of end-users and consumers.
    Although some advocate for disaggregating the current 
structure, I am confident that the weather enterprise is 
stronger together. In the 13 years since the release of the 
Fair Weather Report, the weather partnership has flourished and 
the state of U.S. weather forecasting is strong. Although we 
should always look for ways to improve, we must do so in ways 
that strengthen each partner, not diminish any of the key 
roles.
    I look forward to the discussion today about how we can 
accomplish that goal.
    Thank you, Mr. Chairman, for your leadership on this issue, 
and I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I'd like to thank the Ranking Member, 
and I now recognize the Ranking Member of the full Committee, 
Ms. Johnson, for an opening statement.
    Mrs. Johnson of Texas. Thank you very much, Mr. Chairman, 
and good morning, all.
    People in Texas are very familiar with the impact weather 
has on our daily lives. As a matter of fact, there is a common 
saying that we have all four seasons, and some days we have all 
of them in one day. In just the last few weeks, terrible floods 
have taken the lives of more than a dozen people.
    Weather has a universal impact, and it is only through 
reliable and accurate forecasts that we are able to act to 
protect ourselves. This is why the mission of the National 
Weather Service is to provide weather, water, and climate data, 
forecasts and warnings for the protection of life and property 
and enhancement of the national economy. So while this hearing 
is part of an ongoing dialogue regarding the role of the 
commercial weather industry in our weather enterprise, we must 
keep in mind that the protection of our citizens and national 
security are inherently government functions.
    That is why, in 2003, the National Academies Fair Weather 
Report provided recommendations of how to strengthen the 
existing partnership between the Weather Service, academia, and 
the private sector, and not simply strip away government 
functions as some may suggest. Despite the claims by some that 
we must disaggregate the weather enterprise, it is very clear 
to me that the existing partnership between these three sectors 
has made our weather forecasts more reliable and more accurate.
    We will hear from some of the witnesses that NWS should 
focus on its core functions and let private companies handle 
the rest. However, if weather data collection and weather 
forecasting are not core functions of the NWS, I don't know 
what is. As we must work to ensure that NWS's forecasts are as 
accurate and timely as possible, we need to make sure that NWS 
has the resources and mandates to do so.
    It should also be noted that NWS weather data has enabled 
the growth of a significant value-added industry. There may be 
ways that the private sector can complement and support that 
mission, but I'm very skeptical that transferring all of the 
responsibilities to the private sector is either wise or 
necessary, and therefore I do not support doing so.
    And finally, I would have hoped the Majority would have 
invited NOAA and the Weather Service to participate in this 
hearing but I look forward to hearing their perspective at 
another time.
    I thank you, Mr. Chairman, for having the hearing, and I 
yield back the balance of my time.
    [The prepared statement of Mrs. Johnson of Texas follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. The gentlelady yields back.
    Let me introduce our witnesses, and because we're short on 
time--we have the Prime Minister from India here today--I'm 
going to skip the long and impressive bios, and I'll just 
introduce the individuals here.
    Our first witness today is Mr. Barry Myers, CEO of 
AccuWeather. Our next witness today is Mr. Jim Block, Chief 
Meteorological Officer for Schneider Electric. Our third 
witness today is Dr. Neil Jacobs, Chief Scientist for Panasonic 
Weather Solutions. Our next witness is Dr. Antonio Busalacchi, 
Director of the Earth System Interdisciplinary Center, and 
Professor in the Department of Atmospheric and Oceanic Science 
at the University of Maryland. And our final witness today is 
Dr. Sandy MacDonald, Director of Numerical Weather Prediction 
at Spire Global.
    So I will now recognize Mr. Myers for five minutes--we'll 
say three minutes--to present his opening testimony.

                 TESTIMONY OF MR. BARRY MYERS,

                        CEO, ACCUWEATHER

    Mr. Myers. Good morning, Chairman Bridenstine, Ranking 
Member Bonamici, and members of the Subcommittee.
    AccuWeather is a global leader in weather information and 
digital distribution, and I'm honored to be invited to 
participate in today's hearing.
    The United States has the best weather information 
available to its citizens and its business and industrial 
sectors of any Nation. This result did not occur by the 
American weather industry acting alone; it was and continues to 
be the interactive, cooperative approach of the weather 
industry, the academic research community, and NOAA and its 
National Weather Service that has led to this result. These 
entities form the Nation's weather enterprise.
    American weather companies are now becoming the focal point 
for weather information in many countries around the world. For 
example, the number one weather mobile source in Europe is an 
American company, AccuWeather. We estimate that AccuWeather 
information is on 1.5 billion or more devices globally. It's 
American business leadership, academic research, and government 
partnerships that are propelling this American weather 
phenomenon.
    Some believe that the reduction in weather-related deaths 
in the United States since the late 1950s when the American 
weather industry was at its beginning through the joint and 
collaborative efforts within the weather enterprise have saved 
as many as 1 to 2 million lives. These successes were enabled 
by the foundational partnership between the National Weather 
Service and the weather companies that directly receive NWS 
data, observations, forecast models and so forth, which the 
weather companies and private-sector meteorologists develop 
into weather information products for Americans and for the 
global marketplace. Private-sector innovation and investment 
has enabled many of the technological advances in how American 
weather companies communicate weather to the public.
    At the end of World War II, about 98 percent of the weather 
information received by the public came from the government 
directly, and now it's estimated that that's reversed and about 
98 percent comes from the weather industry, and this includes 
special warnings for tornadoes, hurricanes, floods, et cetera. 
The 24/7/365 acquisition and distribution of core foundational 
data, funding research and development, and running of models 
and issuing government warnings are some of the most important 
things that the National Weather Services does, and those that 
the entire weather community and the public rely on.
    There needs to be a renewed effort within the weather 
enterprise with the Environment Subcommittee through its 
oversight role to strengthen the foundational data partnership 
between the National Weather Service and the private-sector 
weather industry, which industry is now woven into the fabric 
of American life. America's weather industry is a critical 
piece of the Nation's weather value chain as the 2012 National 
Academy of Sciences report clearly points out. The private 
weather sector needs to be supported and nurtured by NOAA for 
the good of the Nation.
    If NOAA does its part, the private sector will do its part 
by continuing to foster technological innovation in the 
development of more advanced and sophisticated weather 
products, forecast services, presentations, and communication 
of weather and warnings to the public.
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to participate today. I would be pleased of course 
to answer any questions you may have.
    [The prepared statement of Mr. Myers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Mr. Myers.
    Mr. Block, you're recognized for three minutes.

                  TESTIMONY OF MR. JIM BLOCK,

                 CHIEF METEOROLOGICAL OFFICER,

                       SCHNEIDER ELECTRIC

    Mr. Block. Thank you, Chairman Bridenstine, Ranking Member 
Bonamici. I appreciate the invitation to testify today on the 
opportunities for public and private partnership to deliver 
improved weather forecasting services for American taxpayers.
    My name is Jim Block, and I'm a Fellow of the American 
Meteorological Society and a Certified Consulting Meteorologist 
at Schneider Electric. Schneider Electric a global Fortune 300 
company with 170,000 employees worldwide, $30 billion in sales, 
and operations in more than 100 countries. We have facilities 
with almost 300 employees in Ms. Bonamici's district, and 360 
in Mr. Rohrabacher's, for example. Schneider Electric is a 
specialist in energy management and automation offering 
integrated solutions across multiple market segments including 
buildings, industrial manufacturers, utilities, and data 
centers.
    We maintain the largest commercial business-to-business 
weather forecasting and consulting organization in the United 
States, providing accurate weather forecasting for over 15,000 
customers all over the world. We utilize more than 80 separate 
data sources including those from NOAA. We innovate and develop 
specialized technology to take the NOAA data and add value by 
fine-tuning it and aligning it to specific customer needs. For 
example, we predict turbulence and flight hazards for over 250 
airlines. We also help determine the amount of chemicals to put 
on icy roads for over 30 state transportation agencies. We 
provide the temperature forecasts used by 70 percent of U.S. 
utilities as well as protect many sports teams from adverse 
weather.
    Currently, commercial weather services like Schneider 
Electric focus on solutions to solve specific end-user 
problems. Conversely, NOAA provides general forecasts and 
warnings for the overall protection of life and property along 
with services that support those activities. This division of 
services between the private and public sectors of weather is 
very efficient and services the American taxpayer very well. 
However, it requires more cooperation and communication between 
NOAA and companies like Schneider Electric to work effectively.
    Some critics may question the need for a government weather 
agency at all. However, we strongly disagree. No commercial 
entity can operate the weather infrastructure that NOAA 
operates today, but at the same time, the multitude and 
diversity of end-user projects can only be addressed by 
companies like ours and others using information from NOAA and 
other sources.
    We offer the following recommendations to drive public-
private partnerships and help deliver the best results to 
communities and taxpayers. First, there should be more, and 
more effective, cooperation between NOAA and the private 
sector. We believe that strong cooperation between NOAA and the 
private sector is necessary and long overdue, and we believe 
that NOAA should have a regular committee that includes 
permanent private-sector members.
    Second, NOAA should place more emphasis on the use of 
existing data sets from commercial sources. We believe there is 
a need to look at the relationship between NOAA and downstream 
service providers such as Schneider Electric. We believe that 
NOAA can benefit from our specialized knowledge of weather 
information end users. For example, Schneider Electric has 
built and now operates the largest agricultural weather network 
in the United States, which consists of more than 4,600 weather 
stations located on farms, where the data is used by farmers to 
make critical decisions on a daily basis. This is information 
that could be tremendously useful to NOAA.
    Third, NOAA should eliminate decision support services that 
duplicate those available in the private sector. NOAA should 
refrain from overextending its scope beyond data sets and 
severe weather warnings. We believe that the private sector can 
and should collaborate with NOAA on any downstream user or 
business services with clear role delineation. Specialized 
services have a marginal benefit to the public and needlessly 
tie up taxpayer dollars on offers that are already available in 
the private sector. Closer cooperation with NOAA could resolve 
such situations.
    We believe that NOAA's mission can be enhanced and be more 
cost-effective if NOAA works more closely with the private 
sector, uses data sets such as the ag weather networks, and 
eliminates duplicative services.
    We commend the Committee for considering our 
recommendations, and thank you for the opportunity to speak 
today.
    [The prepared statement of Mr. Block follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Mr. Block.
    Dr. Jacobs, you're recognized for three minutes.

                 TESTIMONY OF DR. NEIL JACOBS,

                        CHIEF SCIENTIST,

             PANASONIC WEATHER SOLUTIONS, PANASONIC

    Dr. Jacobs. Good morning, Chairman Bridenstine, Ranking 
Member Bonamici, members of the Subcommittee. My name is Neil 
Jacobs, and I serve as Chief Scientist for Panasonic Weather 
Solutions. I am honored to be invited to participate in today's 
hearing.
    Panasonic has a great public-private partnership to provide 
its TAMDAR data to NOAA through the National Mesonet Program, 
which is an example of a successful and sustainable business 
model for data acquisition. Panasonic is very pleased to 
continue our long-term relationship with NOAA to improve the 
quality of weather forecasting. The distinct advantages of our 
TAMDAR data will enhance the National Weather Service's core 
mission: the protection of life and property.
    TAMDAR provides real-time global observations of wind, 
temperature and moisture, its spatial and temporal resolutions 
greater than both radiosondes and ACARS. TAMDAR-equipped 
aircraft and UAVs also report real-time icing and turbulence, 
which are routinely used by the NTSB for accident 
investigations. The SATCOM transmission doubles as a real-time 
back channel communication and flight tracking system.
    Dr. Louis Uccellini, Director of NOAA's National Weather 
Service, said the National Weather Service has long recognized 
the utility of TAMDAR data for analysis and numerical forecast 
models, and I am pleased about this path forward to incorporate 
these data in our day-to-day operations. Dr. Curtis Marshall of 
the National Weather Service has said the provision of this 
unique TAMDAR data set continues to steer the National Mesonet 
Program in a direction consistent with the National Academy of 
Science's Network of Networks vision of a broad range of non-
federal data to improve situational awareness at the National 
Weather Service forecast offices and to enhance our high-
resolution modeling capabilities.
    Panasonic also runs a suite of models from rapid cycling 
regional models to our own global model including an 80-member 
ensemble. These models were developed through longstanding 
collaborative partnerships with both NCAR and several 
universities. Panasonic is the only private entity in the world 
with a custom-developed end-to-end operational global weather 
modeling platform initialized from raw observations. Panasonic 
has worked cooperatively with federal agencies by providing 
TAMDAR data to NOAA and the FAA and at many times at no cost.
    While we are a commercial company responsible to our 
shareholders, we also have another responsibility: to help 
share our technological expertise with meteorological agencies 
around the world.
    In closing, I would like to call the Subcommittee's 
attention to NOAA document NAO-216112, Policy on Partnerships 
and the Provision of Environmental Information. This policy is 
intended to strengthen the partnerships between public, 
private, and academic sectors to provide the Nation with the 
highest quality environmental information. The partnership 
agreement was approved in 2006 by then-NOAA Administrator Dr. 
Conrad Lautenbacher. It was developed in response to 
recommendations from the National Academy of Science and the 
Fair Weather report. I recommend the Subcommittee work closely 
with NOAA, the American Meteorological Society, and America's 
weather enterprise on any revisions to this important 
agreement.
    Mr. Chairman and members of the Subcommittee, thank you 
again for inviting me to participate today. I'm happy to take 
your questions.
    [The prepared statement of Dr. Jacobs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Dr. Jacobs.
    Dr. Busalacchi, you're recognized for three minutes.

              TESTIMONY OF DR. ANTONIO BUSALACCHI,

        DIRECTOR, EARTH SYSTEM INTERDISCIPLINARY CENTER,

                     UNIVERSITY OF MARYLAND

    Dr. Busalacchi. Good morning Chairman Bridenstine and 
Ranking Member Bonamici, Members of the Subcommittee. Thank you 
for this opportunity to brief you again this morning.
    Let me begin by noting today's weather enterprise is a 
triad that consists of the academic and research communities, 
the public sector, and the private sector. The government's 
traditional role within this triad is the protection of life, 
property and enhancement of national security. This public-
sector role is grounded in sustainability and dependability of 
observational data and models that have free and open access. 
The private sector's traditional role is to create customized 
and tailored products to a broad customer base of private 
individuals and businesses in a multitude of sectors. The 
academic community works to improve our common understanding of 
your system, perform basic and applied research that leads to 
innovation, and trains the next generation of workforce both 
for the government and the private sector. The three work 
together in a public-private partnership that on the world 
stage is often the exception rather than the rule. This is a 
particular strength of our Nation's approach to the weather 
enterprise. These three pillars of success have yielded the 
world's most comprehensive and successful array of weather 
services in support of the public and private good.
    While the roles of each of these legs of the weather 
enterprise must continue to evolve, weakening any single leg 
will compromise the entire enterprise and will negatively 
impact its diverse beneficiaries. We must also recognize that 
the private sector has been built upon and has benefited from 
the foundation of the free and open approach data and models. 
As a result of this tremendous investment from the public, 
there has been an enormous return to the public in terms of 
jobs and innovations.
    I think we should act with caution so as not to do any harm 
and assure that the marketplace retains its competitiveness and 
no barriers to entry are neglected. In short, we need to find a 
workable method to strategically plan the entire enterprise.
    The last major study from the National Academies, as you've 
heard, was the Fair Weather report of 2003. As a result of that 
report, NOAA worked to produce a policy to support 
dissemination of environmental information to the public that 
was beyond just weather data. In 2012, the Academies released a 
report on weather services for the Nation becoming second to 
none. That was an assessment of the National Weather Service 
modernization program. It had three main recommendations: 
prioritize core capabilities, evaluate function and structure, 
and leverage the entire enterprise, and that was the bulk of my 
written testimony.
    I believe it is time to revisit these two reports but we 
are lacking a national strategy, and I think we run the risk of 
losing sight of the big picture. At one moment we may be 
occupied by the challenge of commercialization of satellite 
observations, the next moment by the potential private-sector 
models, and the next by procuring models from another country, 
all at the expense of what may be best for the country as a 
whole. I can easy see a scenario where company X takes publicly 
supported and freely available models and data and adds unique 
value to them. Company Y sells some data to the government but 
withholds some for its business purposes, and Company Z has its 
own proprietary models and data that are not available for the 
common good. Is this what is best for our Nation to protect 
lives, property, and support our military in the field?
    Continued improvement in our forecasting ability requires 
that observations be reliable and accessible and forecasts for 
the public good be verified, validated and transparent.
    Prior to taking on my new position with UCAR, I was co-
chairing the next Decadal Survey for Earth Science and 
Applications from Space. As requested by the Congress, all of 
the space sciences have a long history of these decadal surveys 
that the agencies are beholden to as well as the insight they 
provide to you, OMB and OSTP. We have no such activity for the 
weather enterprise. Given the evolving nature of the weather 
enterprise, I would submit we need an active and ongoing 
strategic planning process as could be achieved by Congress 
requesting a decadal survey for the weather enterprise 
inclusive of midway assessments and subsequent follow-on 
surveys.
    In closing, there is considerable upside potential for the 
Nation if we do it right. We have much to lose if we do it 
wrong. Thank you.
    [The prepared statement of Dr. Busalacchi follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Dr. Busalacchi.
    Dr. MacDonald, you're recognized for three minutes.

          TESTIMONY OF DR. SANDY MACDONALD, DIRECTOR,

           NUMERICAL WEATHER PREDICTION, SPIRE GLOBAL

    Mr. MacDonald. Chairman Bridenstine, Ranking Member 
Bonamici, and Members of the Committee, I retired from NOAA in 
January after 40 years, fabulous organization. I signed on to 
Spire Global Incorporated, which is a company that's going to 
use small satellites to I think bring revolutionary changes to 
our ability to observe the weather.
    I started my career as a young weather officer giving 
weather briefings, and the truth is, we had almost no 
information. The pilots, their lives depended on what we could 
tell them, and we knew very little. I'm sure our Chairman could 
vouch for that occasionally.
    But it's a different world now. The government, originally 
a sole player in those days, I think has now been enhanced by 
our growing commercial sector, which I think if we have the 
right policies, we can have a fabulous partnership between the 
academic, the public and the private weather capabilities to 
serve this country.
    I'll give a couple examples. I was, back in about the year 
2000, part of a group who said let's have a community model, 
the weather research and forecast model, and I think NCAR and 
NOAA and others, NASA, worked on this but the big thing that I 
think that happened was, NCAR basically said we're going to 
make this a real community model to support it, to not have 
intellectual-property issues and other issues get in the way, 
we'll have workshops and so on. It's been a huge success. So 
it's a great example of private-public partnership. I think the 
fact that the Panasonic model that Neil Jacobs talked about 
used the Weather Service GFS model is another example of that.
    I'd like to talk about the satellite observing systems. I 
think that the private sector can really bring some dynamism 
and complementary to the federal sector in satellites, and a 
good example of that is Spire, the company that I work for. We 
all remember when we went from mainframes to PCs. I think 
that's what Spire is trying to do with satellites. They're 
trying to take a big, expensive technology, put it down in a 
little tiny box, and still get incredible quality out of it. So 
they propose to generate radio occultations from cubesats. I 
think they're going to have probably 30,000, 40,000 next year, 
and their goal is 100,000 COSMIC 1-quality radio occultations. 
This is like having a radiosonde balloon that has a sounding 
for every degree of lat and longitude over the entire globe.
    I think it's important that we protect our federal sector. 
It's really what we depend on for safety, for working on Earth 
system issues. Examples of those are COSMIC 2. We know that 
GOES-R and JPSS are going to have a fabulous set of sensors. 
It's really important that we have the private sector be 
complementary to that.
    Finally, I'd like to say I think the sort of strength of 
the U.S. is its ability to mix the advantages of public and 
private, and I think that's our job here to do that in the 
weather business.
    Thank you.
    [The prepared statement of Mr. MacDonald follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I'd like to thank all the witnesses 
for their testimonies.
    Members are reminded that Committee rules limit questioning 
to five minutes, and I'll start by recognizing myself for five 
minutes.
    Dr. Jacobs, I wanted to start with you. Panasonic has its 
own numerical weather models, and Panasonic uses its own data 
in some cases, and in many cases uses data from NOAA and other 
sources as well. Can you share with us your weather forecasting 
models? How does that compare to the GFS--the Global 
Forecasting System--or the European model? How is your model 
comparing to the others?
    Dr. Jacobs. So that's correct. We use our own data. We 
bundle that with all the publicly available data. We assimilate 
that into a suite of different models, our flagship model being 
a global model. It differs slightly from NSEP's in both the 
data assimilation scheme as well as a lot of the modifications 
and the physics. Its performance really depends on how you 
verify it. If you verify it through sort of the standard 
anomaly correlations, it's slightly ahead of NSEP. The European 
center had a major upgrade in March. It's slightly lagging the 
European center. If you verify it through other means, 
particularly case studies, there's been some major weather 
events over the last two years where it's outperformed both.
    If you actually consider the fact that we have complete 
control over the system that's fully customizable from a 
business perspective, it's highly advantageous because we can 
write out files in increments, levels and variables that you 
wouldn't normally get from the government center because our 
motivation is actually helping other businesses. We believe 
that the Weather Service's mission is to protect life and 
property.
    Chairman Bridenstine. Has anybody from NOAA or the 
Department of Defense reached out to you to get information on 
how you're able to accomplish this?
    Dr. Jacobs. Yes. I actually have some meetings at the 
Pentagon lined up shortly. I'll be giving a seminar next month 
on some of our data assimilation methods. Our software 
engineers are in constant contact with the NSEP, and to the 
extent that it doesn't negatively impact our business model, we 
do share information with them.
    Chairman Bridenstine. And the intent with the model is to 
what? You want to license the outcomes, the outputs of your 
model? Is that your intent?
    Dr. Jacobs. Well, the primary intent would be to customize 
and develop products and applications to sell to other 
industries. They would be products that you can't normally 
derive from the publicly generated weather model data. As far 
as the government agencies are concerned, the possibility of 
licensing some of the software does exist.
    Chairman Bridenstine. And my understanding is, your model 
is a global model to establish the global initial conditions 
for weather forecasting. Can you share with us, does your model 
have the ability to do mesoscale forecasting or even microscale 
forecasting for my constituents that are obviously hit with 
severe weather from time to time?
    Dr. Jacobs. Right. So one of the reasons why we decided to 
run our own global model is, every regional model needs what 
they call boundary conditions provided by a global model. So we 
run the global model to provide lateral boundary conditions to 
high-resolution nested regional models. We currently run 
several different nested regions running from 4 to 2-1/2 
kilometers, and within those nested regions we can have high-
resolution domains down to sub-one kilometer.
    Chairman Bridenstine. Got it.
    And Mr. Block, how has NOAA reacted to your innovation with 
weather modeling and forecasting?
    Mr. Block. They have expressed considerable interest in 
the--especially in the ag weather network data that we provide, 
and we look forward to working more closely with them to figure 
out how we can use that information or even extend or expand 
that information to add things like soil temperature or soil 
moisture to the observations we make.
    Chairman Bridenstine. Awesome.
    Dr. MacDonald, how many GPS radio occultation sensors has 
Spire launched to date?
    Mr. MacDonald. So far, I think we're kind of at the 
beginning. We actually have four satellites and then two test 
satellites, and we're just learning how to get the quality out 
of them that we need.
    Chairman Bridenstine. And is your intent to establish your 
own numerical weather models as well or to piggyback on the 
numerical weather models of others?
    Mr. MacDonald. Our intent is not to establish our own 
weather models except to the extent that we want to be able to 
test the value of these so that we can talk to our customers 
and show that it's valuable.
    Chairman Bridenstine. So your objective would then be to 
provide a service to others that are providing the model? It 
could be Panasonic, it could be NOAA, it could be others?
    Mr. MacDonald. That's correct.
    Chairman Bridenstine. Okay. I've been encouraged that NOAA 
is moving forward with the commercial weather data pilot as 
outlined in the bipartisan House-passed weather bill, H.R. 
1561. I'm very pleased with that.
    Dr. MacDonald, can you give me your take on NOAA's approach 
to working with the private sector to incorporate data such as 
Spire data into their weather models?
    Mr. MacDonald. I think that we have to see about the 
future. I think the ideas in the Fair Weather Act and the 
experience already with private data being available that Neil 
Jacobs just talked about shows that the path is there, so we're 
hoping that we can have that partnership with the data also.
    Chairman Bridenstine. Excellent.
    And I'd like to--my time is out. I'll recognize the Ranking 
Member from Oregon, Ms. Bonamici, for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
to all the witnesses for your testimony.
    Dr. Busalacchi, a well-funded and forward-thinking Weather 
Service is critical for the continued protection of the lives 
and public of the American public, and we certainly heard that 
recognition not just from you but from others today, and we 
want continued growth.
    You mention in your testimony the need for a national 
strategy, so I'm going to ask you about a couple of things, and 
then I want you to talk about what you envision as part of the 
national strategy. One, should we be investing in greater 
supercomputing capacity for the Weather Service, and if so, 
what would be the needs for optimal model runs? And then also, 
Dr. Block mentioned in his prepared statement that NOAA should 
leverage the examples of other agencies and have regular 
committee or working groups that include the private-sector 
members. So do you have any perspectives on that idea? Are 
there other models that may be considered? And what would you 
envision as a national strategy?
    Dr. Busalacchi. Thank you very much. So with respect to 
supercomputing, the answer is yes, but--so if you look at one 
of the reasons why for this medium-range time scale for 
weather, predicting weather on time scales from three to five 
to seven days, one of the reasons why we're about ten years 
behind the Europeans is in part because of supercomputing, but 
as a result of your encouragement, NOAA is now at the forefront 
worldwide in supercomputing capability at this instant. What we 
lack is the budgetary, the planning process to keep us there, 
all right? In years past we were behind the Europeans. We're 
now at the forefront but for a snapshot. One problem. So we 
need to solve that.
    The second problem is this whole topic of transition from 
research to operations so that the Nation can take the best of 
the best wherever it comes from, not just the private sector 
but from academia as well. Europeans are much better at doing 
that transition from research to operations. NOAA has a plan 
called RTAP, Research Transition Acceleration Program, that is 
going to try and move that. I think that's in the right 
direction. But one of the challenges going forward with respect 
to a strategy--so Mr. Block's recommendations are very 
consistent with what were in the Fair Weather report of 2003, 
13 years ago. One of the challenges there is follow-up. I don't 
think we need another report onto itself but we need a process.
    So over the years I've done something like 20 different 
National Academy reports. Oftentimes those reports end up on a 
shelf collecting dust because there's no follow-up, and that's 
why I recommended a decadal survey because it's mandated by 
you. The agencies need to show cause if they differ from the 
recommendations in the decadal survey. Five years into the 
process--I mean after the report is written, there's a midterm 
assessment to see whether or not the agencies are doing what 
was encouraged, and then five years after that, there's another 
decadal survey. So it's a process, it's not a one-off activity. 
And it's not--we're not talking here about a bunch of 
academics. It is this three-legged stool. One-third of my 
colleagues here from the private sector, one-third from 
academia, and you couldn't have the feds at the table but you 
could have one-third composed of former senior government 
officials now in industry like Sandy MacDonald. Myself, I spent 
18 years in NASA as an SESR, then went into academia. So you 
have--you're taking advantage of the best of the best.
    Ms. Bonamici. Dr. Busalacchi, I don't mean to interrupt but 
I want to get another question in before my time expires.
    The employees of the National Weather Service work 
tirelessly to serve our communities and assist, for example, 
with natural disasters. My State of Oregon and the Northwest 
have faced severe wildfires. Weather Service employees have 
provided specialized forecasts tailored to those wildfires to 
help firefighters safely and effectively extinguish them.
    So the National Weather Service is a public good, so could 
you explain why it's important that the Weather Service provide 
the baseline forecasts? What other benefits are there of having 
government-provided publicly accessible forecasts?
    Dr. Busalacchi. So again, the vast majority of what my 
colleagues have spoken to about here are founded upon the 
publicly available forecasts and the data, and again, in terms 
of the role of the government, in terms of protecting public 
life, infrastructure and, again, homeland and national 
security, we need to have the best of the best, and that goes 
back to this three-legged stool: having the private sector 
engaged, having academia and the research engaged, and having a 
strong partner in the government as well. That's, in my 
opinion, the only way that we could have the best of the best 
and compete with the Europeans.
    Ms. Bonamici. Terrific. Thank you.
    My time's about to expire. I yield back. Thank you, Mr. 
Chairman.
    Chairman Bridenstine. I thank the Ranking Member.
    As I pass the baton here for one second, I'd like to get 
Dr. MacDonald to respond to Dr. Busalacchi. You mentioned that 
the movement from research to operations is going well. Dr. 
MacDonald, do you agree with that? When you think about the 
high-resolution rapid refresh model, didn't that sit on the 
shelf for years?
    Mr. MacDonald. I think the high-resolution rapid refresh 
should have gone faster but I think it's a pretty fabulous 
model and I'm exciting about that accomplishment.
    In terms of how well we do research to operations, I think 
a major point is that we can always do better. I think we 
learned a lot where we said okay, we're going to have these big 
community models and everybody can work on them. The point that 
I'm making is, we did that for the regional models. I think we 
want to do that now for the global models, and I think it's 
crucial.
    Chairman Bridenstine. Dr. Busalacchi, you're recognized.
    Dr. Busalacchi. Thank you very much. Let me be very clear. 
I think that's one of the fundamental differences between us 
and the Europeans. I think the Europeans do a much better job 
of the transition from research to operations, so again, what I 
was trying to say is, we need to do better at sustaining 
computing and we need to do a much better job of transition of 
research to operations from the research community as well as 
the private sector.
    Chairman Bridenstine. Got it. Okay.
    I'd like to recognize Mr. Weber from the State of Texas for 
five minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    These will be for Dr. Jacobs. I'll start with you. Dr. 
Jacobs, in your experience, in your opinion, does the federal 
government and NOAA facilitate, hinder or resist commercial 
weather opportunities and involvement?
    Dr. Jacobs. I would say they facilitate it, particularly on 
the data acquisition side. So there's been--we've had a very 
good experience in working with them and contracting for 
aircraft data. It's been a little tricky navigating the re 
distribution rights issue but by and large we're very happy 
with how things have gone, and I believe and they believe that 
it's improving their mission, improving their models and 
improving their forecasts.
    Mr. Weber. Okay. Well, I didn't mean to put you on the spot 
but I wanted to put you on the spot.
    Dr. MacDonald, I'm going to come to you with the same 
question, and Dr. Jacobs, I want you to think about it. You 
said it was a little tricky. I'm going to give you a one minute 
warning here to facilitate some of that stuff. You'll get your 
chance to abuse the witness.
    Dr. MacDonald, I'm going to come to you, same question. Do 
you think NOAA facilitates, hinders or resists commercial 
weather opportunities and involvement?
    Mr. MacDonald. I think in our case, in Spire, we have good 
hopes that we're going to have a great relationship with NOAA. 
I appreciate Neil's comment because they've dealt with this 
issue already, and he said it was tricky but they got through 
it, so I'm really hoping that in our case with fabulous 
satellite data we really have that opportunity to help the 
world.
    Mr. Weber. And Dr. Jacobs, back to you. Your one minute is 
up. You said it was tricky in them doing it. How so?
    Dr. Jacobs. So traditionally, per the WMO's Resolution 40, 
most data that's produced by NOAA is redistributed freely to 
the other government international met centers. That impacts 
our business model because if we want to sell it to the 
European center, we can't sell it to the European center if 
NOAA buys it from us and gives it to the European center. There 
is a provision in the WMO Resolution 40 that allows for 
redistribution restrictions for commercially acquired data 
provided it's defined as non-essential. So we've asked that 
that be restricted for the purposes of sort of forcing the WMO 
members into a cost-sharing model. So if we actually prevent 
redistribution, then we get to charge NOAA less because we can 
actually sell it to the other government international met 
centers, thereby sort of forcing a cost-sharing model on all 
the government agencies worldwide.
    Mr. Weber. But I'm assuming you make up that income 
difference by selling it to the other agencies?
    Dr. Jacobs. We're currently in contract discussions with 
both the European center and the U.K. met office for data 
acquisition. Every government met center has their own special 
needs. For example, some smaller countries don't even run a 
global model so they're only interested in the regional data 
around their domain.
    Mr. Weber. Okay. This really, I guess, is a question for 
the three on the right here. We'll start back with you, Dr. 
Jacobs. Do you see any bias from NOAA in certain weather 
predictions? In other words, I'm speaking specifically about 
climate change, global warming, sea-level rise. Are you seeing 
any bias whatsoever?
    Dr. Jacobs. Most of the forecasting that Panasonic is 
involved in is in the zero- to 2-week range. Every numerical 
model has its own unique bias characteristics but that's more 
in the weather, not really so much in the climate.
    Mr. Weber. Fair enough.
    Is it Busalacchi? Is that how you say it?
    Dr. Busalacchi. Perfect.
    Mr. Weber. Okay.
    Dr. Busalacchi. With respect to the science of weather and 
climate, absolutely no bias at all.
    Mr. Weber. That's good to hear.
    Dr. Busalacchi. What I say, though, is with respect to 
model development for weather, the agency faces almost a catch-
22. If they choose a model that's developed in-house, they will 
be criticized by the external community for a ``not invented 
here'' syndrome. If they choose a model from the community 
that's not invented within the agency, they're going to get 
criticized, well, why are you making this investment inside the 
agency when you can get it outside. So they're darned if they 
do and they're darned if they don't.
    Mr. Weber. All right. I'm going to move over to you, Dr. 
MacDonald.
    Mr. MacDonald. I do not see bias. I see scientists who 
argue about all aspects of it, and with reports like IPCC and 
others, I think it's well represented, and no, I don't see a 
bias.
    Mr. Weber. Okay. That's good to hear.
    Mr. Chairman, I yield back.
    Chairman Bridenstine. The gentleman yields back.
    Dr. Jacobs, just to follow up, if you--if your goal is to 
sell data to the Europeans or your goal is to sell data to 
NOAA, why did you build your own model?
    Dr. Jacobs. Well, part of the reason for that was, we can't 
fully subsidize the cost of collecting the data so to run the 
data off the aircraft through SATCOM is quite expensive. So we 
offset that by generating products and services. The main 
reason why we actually run the models is to do quality control 
on the data because what we wanted to do is have the customers 
get the best value and impact of the data.
    Chairman Bridenstine. So it's to test the data? That's----
--
    Dr. Jacobs. It's to test, and when we do provide the data, 
we provide a set of quality control flags along with the data. 
Those are derived from the data assimilation component in our 
model.
    Chairman Bridenstine. Okay.
    I'd like to recognize the Ranking Member of the full 
Committee, Mrs. Johnson, for five minutes.
    Mrs. Johnson of Texas. Thank you very much, Mr. Chairman.
    Dr. Busalacchi, I think what I'm hearing is that the NWS 
and the U.S. best work together or are at their best working 
together. Is that right?
    Dr. Busalacchi. That's correct. Again, I think a unique 
strength of our approach, the U.S. approach to the Nation's 
weather enterprise, is when the government, the private sector 
and the research community are working together all towards a 
common purpose. That's correct.
    Mrs. Johnson of Texas. I have seen a great improvement in 
weather predictions, and I hope that'll continue to improve 
because I've also seen where it saved a lot of lives even 
though in many cases there might be property destroyed. Lives 
are being saved because of those projections and people have 
time to get out of the way.
    We also talk a lot on this Committee about changes killing 
jobs, and I'm trying to figure out if it's privatized, what 
would happen to these seasoned employees that are government 
workers?
    Dr. Busalacchi. So I'm sure there's great concern within 
the agency. I mean, I used to be--the two of us used to be 
civil servants and so they provide this core support that has 
allowed over the last 20 years my colleagues here in the 
private sector to build off that. If that core support is gone, 
we may have some near-term gains but in the mid to long term 
the enterprise may well collapse on itself because that core of 
the data and these foundational models just won't be there for 
the private sector to flourish.
    Mrs. Johnson of Texas. Thank you, Mr. Chairman. I yield 
back.
    Chairman Bridenstine. The gentlelady yields back.
    I'd like to recognize the gentleman from Texas, Mr. Babin, 
for five minutes.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it. And 
thank you, witnesses, for being here.
    I'd like to ask my first question of Mr. Myers of 
AccuWeather. Mr. Myers, who makes up the American weather 
industry, quote, unquote, and what steps could be taken to 
improve cooperative relationships between NOAA and these 
companies? If you could elaborate on that, I would appreciate 
it.
    Mr. Myers. Well, I think different people have different 
definitions of what constitutes the American weather industry. 
If you look at some of the groups like the Weather Coalition or 
the American Weather and Climate Industry Association, they're 
very welcoming of all members who touch upon any form of 
weather information and forecasts from the data collection 
itself all the way through the modeling and to the distributors 
of information. So I think the definition is relatively broad. 
Your second question was?
    Mr. Babin. What could we do to improve cooperative 
relationships between NOAA and these particular companies that 
you just mentioned?
    Mr. Myers. Well, this has been an ongoing effort at least 
that I've been involved in for 20-some years actively, and I 
think that it is generally improved. If you looked at a chart, 
it would be on the upswing. I think there needs to be further 
interaction at all levels of NOAA. I think that NOAA could 
benefit from better understanding exactly what the value is 
that the weather industry brings to the whole weather 
enterprise. We do get a lot of that recognition now in many of 
the management areas. A number of years ago when you talked 
about these things, it was looked upon as though we were 
competing somehow with what the government does but quite to 
the contrary, I have been here to testify and on other 
committees many times in support of funding for NOAA and the 
job that they do. I think that things like the EISG committee 
as part of the SAB for NOAA has over the last six or seven 
years it's been in existence has been very beneficial in 
interacting and enhancing that communication, and I think 
activities like that need to continue and be strengthened.
    Mr. Babin. Okay. Thank you. And in your mind, what is the 
goal of weather forecasts in the future? How far out will we be 
able to accurately predict the weather, and are there specific 
goals for the next five, ten, fifteen years?
    Mr. Myers. Well, I know at AccuWeather, we're constantly 
pushing the envelope, and we sometimes get criticized for doing 
so. We launched a 90-day forecast, for example, that has day-
by-day predictions that some have made a joke of, but the fact 
is that there's actual science behind it. I know when we first 
started introducing a 5-day forecast decades ago, people said 
the same thing: ``You can't do it.'' I think that there is no 
end to what you can do. Our accuracy, for example, with tornado 
and hurricane forecasting is literally amazing. We have had 
plants evacuated 20 minutes before they've been totally 
destroyed by tornados and saved all the lives inside. The U.S. 
Congress in its report on Hurricane Katrina talked about how 
AccuWeather was in fact the only organization that had it right 
and far enough in advance.
    So there are lots of things that can be done. I think that 
better understanding of what in fact the private sector does in 
forecasting is very important because we do specialize in a 
number of areas and activities, and even outside independent 
sources now that do ranking of forecasts have shown that the 
AccuWeather forecasts are actually statistically more valid 
than anybody's, and there are ways that that happens. It's not 
just magic.
    Mr. Babin. Absolutely. Thank you so much.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Bridenstine. The gentleman yields back.
    I recognize the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thank you. I was told I had to go very, 
very, very last since I'm not on the Committee, so I'm happy to 
go or I'm happy to wait my turn.
    Chairman Bridenstine. We'll let you go.
    Mr. Perlmutter. Thank you, sir.
    And to the panelist from Colorado, welcome. Dr. MacDonald, 
good to see you. Dr. Busalacchi, nice to have you. And 
gentlemen, I appreciate the testimony because one of the things 
I'm hearing generally is that there's an effort to work 
together to improve weather forecasting, predictions across the 
board, and as we've talked about in this Committee, for life, 
for property, for commerce, looking at those things, and a lot 
of the conversation that we've had when it comes to, you know, 
industry participating in weather forecasting is really just a 
matter of contract, you know, who's going to get this 
advantage, who's going to get that advantage, who gets the 
redistribution rights, what are the royalties, those kinds of 
things, and if you're actually having a conversation and a 
dialogue, which it sounds like you are, then you can work out 
those contractual matters, and I appreciate the efforts being 
taken by everybody in this respect.
    And Dr. Busalacchi, congratulations on your appointment to 
head UCAR, and obviously that's a very important organization 
for Colorado at the National Climate and Atmospheric Research 
Center. So I appreciate the efforts to continue to work 
together because I do think it's a three-legged stool as you're 
talking about. You've got academia, the private sector and 
government because the one thing we know is the private sector 
is interested in profits, and that's okay. That's the way it 
works. And if there isn't profits, then the question is, is 
that private company going to be altruistic and look out for 
the public good. Sometimes maybe yes but mostly no because 
they've got to talk to their shareholders and provide for their 
shareholders.
    So having given that little speech, Dr. Busalacchi, some 
entities such as some of the companies represented today that 
the Weather Service should focus on its core forecasting 
functions and should not duplicate services that are already 
provided by the private sector. What's your opinion of that? 
Although I'm not sure I ever heard them say that.
    Dr. Busalacchi. No, I didn't hear it either, and one of the 
issues is, you know, who's going to arbitrate. So again, the 
role of the government, as I said before, is protection of 
life, property, support of economic competitiveness, and 
homeland and national security, and to do that, the government 
needs to be in the cutting edge and have these foundational 
data sets where we are the best in the world and then also have 
these free and open models so that my colleagues here can build 
upon it but again that those models need to be the best of the 
best, and as my colleague Sandy mentioned, the best way of 
being the best of the best is this community approach, taking 
advantage of the strengths of the academic community and the 
strengths of the private sector so that these core foundational 
models are at the forefront and the world's best.
    Mr. Perlmutter. Thank you. And I'm going to turn to you, 
Dr. MacDonald, in just a second, but I wanted to thank all 
three legs of the school: academia, government and private 
industry. We have some constituents who were missing during 
Cyclone Winston down in the Fiji area, which was a huge storm 
down there, and among the three, we were able to determine even 
though there was no communication that the path of the storm 
kind of bypassed them, and it brought a lot of comfort to the 
family members in my district. So NCAR and UCAR helped me, NOAA 
helped me, and Digital Globe and a number of other companies, 
so thank you.
    So Dr. MacDonald, my question to you is, now that you moved 
from the NOAA world to Spire, how do you see the collaboration 
and the cooperation?
    Mr. MacDonald. Well, I think it's going to take time to, 
you know, learn how to get the kind of relationships that we 
need. What I see is that--I joined Spire basically because I 
see a fabulous capability that could become available, you 
know, very quick and that I don't think would in the normal 
course of our federal acquisition be available anywhere near as 
fast, so my hope is we work great together and we get better 
weather forecasts a lot sooner because of this situation.
    Mr. Perlmutter. Thank you. I yield back.
    Thank you, Mr. Chairman, for letting me go out of order.
    Chairman Bridenstine. The gentleman yields back.
    A couple of important points I'd like to make, because 
there is a balancing act here between the public good and the 
private sector, and I think all of us on both sides of the 
aisle agree that we absolutely must have a government backbone 
because it is for the lives and safety of our citizens but also 
for the property of Americans. So I agree with that completely.
    I also believe that there's a commercial industry 
launching. Whether it's devices that are on aircraft or whether 
it's devices that are on satellites, at the end of the day 
they're going to be selling data to the commercial sector, and 
if by selling to NOAA, NOAA gives the data way for free, then 
they will never sell to NOAA and the public sector will miss 
out on critically valuable pieces of information that 
ultimately could save lives and property. So this is a 
balancing act that we're going to have to figure out why this 
Committee is so important.
    I'd like to recognize Mr. Westerman for 2 minutes. We have 
to be on the Floor of the House technically at 10:35, so we're 
going to go to 2-minute questions, so get your most important 
ones ready, and we'll go from there.
    So Mr. Westerman, you're recognized for 2 minutes.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Myers, you reference in your testimony the widespread 
use of smart devices these days. With the ever-expanding 
ability of crowdsourcing as a tool such with the success of the 
traffic app Waze, do you see this being applied to weather 
reporting in any way?
    Mr. Myers. Yes, absolutely it will be. The collection of 
information through crowdsourcing, through vehicle sensors and 
a whole host of other things is an important area. It's one 
that we have worked in extensively. In fact, we had one of the 
first patents having to do with the collection and reporting of 
severe weather through mobile devices, which, interestingly, 
for the Committee, we license for free to the National Weather 
Service because they were using that capability, and we felt it 
was so important. You know, people talk about the private 
sector but if you look at the company mission for AccuWeather, 
it starts out to protect lives and property, not to make a 
profit, not that we don't want to make a profit but--and it's 
our mission statement. Yes, it is. In fact, if you look at ours 
and the Weather Service's next to each other, you have a very 
hard time distinguishing the difference.
    I think that's true of most of the people that are in this 
field. They feel a strong obligation to the public to do these 
things, and constantly looking for ways to improve by using 
this kind of information.
    Mr. Westerman. And because we're limited in time, I'll just 
ask Mr. Block if he'd like to add to that.
    Mr. Block. Well, I certainly agree with a lot of the things 
that Barry is saying. In fact, we serve--my company serves over 
a thousand public emergency managers with our systems and our 
capabilities, and a lot of that information comes from NOAA, 
but it's disseminated--it's our systems that are actually the 
means of dissemination so for Schneider Electric, it's very 
important that we continue to work closely with NOAA and make 
sure that we're not in a competitive situation but in a 
cooperative one.
    Mr. Westerman. I yield back, Mr. Chairman.
    Chairman Bridenstine. The gentleman yields back.
    The gentleman from Alabama, Mr. Palmer, is recognized for 
two minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Jacobs, I read an article where it talked about 
Panasonic's weather forecasting model that's among the best and 
maybe even the very best in the world, and there were some 
questions raised about whether or not Panasonic would share 
that model with NOAA or other organizations. Could you comment 
on that, please?
    Dr. Jacobs. Yes. Those--we do intend to share the 
information. What sort of form the information is shared in may 
depend on the licensing arrangement and redistribution rights 
obviously. Sharing the gridded data would be a lot different 
than sharing visual plots of model output, which can convey the 
same information, but the gridded data can actually be used for 
product generation, and if they redistributed the gridded data, 
it would negatively impact our business model. There are 
certain things that we can provide the Weather Service with to 
help improve their mission that wouldn't negatively impact our 
business model, and we would certainly do that.
    Mr. Palmer. How would Panasonic share information, for 
instance, with NOAA, you know, to provide necessary information 
to protect lives and property?
    Dr. Jacobs. Well, a good example of that would be the 
aircraft data. So we currently have a contract to sell NOAA a 
subset of our aircraft data, but in times in the past when 
there's been a national emergency, we typically define that as 
when the National Weather Service decides to do supplemental 
radiosonde launches at either 16 or 18 Z. When those alerts are 
issued, we will activate the full feed to pipe them the 
remainder of the data at no charge.
    Mr. Palmer. Well, considering that Panasonic claims to have 
the world's best, and I hope you do, I think this Committee 
would join me in looking forward to seeing that model.
    I yield back.
    Chairman Bridenstine. The gentleman yields back.
    And I'd like to--for Mr. Myers, regarding giving the data 
away for free, from my assessment, I absolutely 100 percent am 
committed if the government is creating the data with taxpayer 
money, that is public data, and I fully support making sure 
that that data is available to the world as part of our WMO 40 
agreements. It's the commercial data that is licensed that we 
have to be concerned about because if we don't do it right, 
then that commercial data will never be created, and if it's 
not created, then it can't be a public good for anybody.
    I'm going to go to Mr. Rohrabacher here in just a few 
minutes. Ms. Bonamici had a quick question. Would you mind if I 
yielded to her for one minute?
    Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I just wanted, Dr. Busalacchi, if you could address what 
process is involved in validating the models and forecasts that 
are disseminated by the National Weather Service? Because if 
we're talking about or contemplating greater use of private 
data forecasts or models, should there be some similar 
validation or verification process before potential use in 
operational NWS forecasts?
    Dr. Busalacchi. So anything in the public domain is fully 
vetted, it's transparent. When dealing with the private sector, 
we have to talk about validation, verification, transparency. 
Our particular company, are their getting the right results or 
good results for the right reason? Can it be replicated? Can it 
be tested? That's all part and parcel of the scientific method, 
but at the same time, sometimes that's in conflict with 
intellectual property. But in terms of the public good, it has 
to be transparent, it has to be traceable in the peer-reviewed 
literature, absolutely.
    Ms. Bonamici. Thank you, Mr. Chairman. I yield back.
    Chairman Bridenstine. The gentlelady yields back.
    I now recognize Mr. Rohrabacher for two minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Just some fundamentals. How many weather satellites are 
there? When was the first weather satellite put into orbit?
    Mr. Block. I believe that the first weather satellite was 
launched in the early 1960s. It was the TIROS satellite.
    Mr. Rohrabacher. I remember--Mr. Chairman, I remember 
sitting through a hurricane back in the 1950s. We had almost no 
advance notice on it, and I'll just note that what we're 
talking about here saves not only lives, which are very 
important, probably thousands of lives, but also billions and 
billions of dollars. In that way, this is an industry that's 
paying for itself in so many ways, and the fact that the 
private sector is now deeply involved in this I think this is a 
very--an American story of success, and I want to thank the 
witnesses for enlightening us today as to details.
    One last--I'm sorry--perhaps a little bit more 
controversial question is, are experiencing more severe weather 
incidences today than they did 100 years ago? Just a yes or no 
down the line if I could.
    Mr. Myers. Not being a scientist, I'm going to pass on that 
question.
    Mr. Rohrabacher. All right.
    Mr. Block. I think the answer is yes, there is more--there 
are more instances of severe weather, but it's largely a 
function of the population and the urbanized areas increasing 
in size so there's more people to observe them.
    Dr. Jacobs. I would agree with that answer. I think that 
there's a lot more observations so it tends to show------
    Mr. Rohrabacher. So in other words, it's not more severe 
weather, it's just that we see more of it, especially now that 
we have so many satellites up there?
    Dr. Jacobs. Well, we don't necessarily know for sure 
because the inverse of that would be, there were no observing 
systems or observers back then, so we don't know if it was 
happening or not.
    Mr. Rohrabacher. All right.
    Dr. Busalacchi. So where we have long contiguous records, 
we do see an increase in extremes. In addition, we have an 
increase in population that's becoming more vulnerable to those 
extremes.
    Mr. MacDonald. I think Tony's answer captures my thoughts.
    Mr. Rohrabacher. Okay. Thank you very much, Mr. Chairman.
    Chairman Bridenstine. The gentleman yields back.
    I'd like to thank the witnesses for their valuable 
testimony and the members for their questions.
    The record will remain open for two weeks for additional 
comments and written questions from members.

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
